No. 20-255

In the Supreme Court of the United States
MAHANOY AREA SCHOOL DISTRICT,
PETITIONER,
V.

B.L., A MINOR, BY AND THROUGH HER FATHER
LAWRENCE LEVY AND HER MOTHER BETTY LOU LEVY,
RESPONDENTS.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of the Liberty Justice Center and Firearms Policy Coalition In Support Of
Respondents contains 3,016 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 30, 2021
/s/ Daniel R. Suhr
Daniel R. Suhr
Counsel of Record
LIBERTY JUSTICE CENTER
208 LaSalle St., Ste. 1690
Chicago, IL 60604
(312) 637-2280
dsuhr@libertyjusticecenter.org

